0C.(°3-l 2/
m£>
No:

0.1-n't

IN THE
SUPREME COURT OF THE UNITED STATES
YVONNE O. REIGNAT-VODI /D/B/A SHEPHERDS DRIVING SCHOOL
PETITIONER

v.

MARYLAND MOTOR VEHICLE ADMINISTRATION
RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Yvonne 0. Reignat-Vodi
1810 Metzerott Road Apt47
Adelphi, MD 20783
Tel: 240-475-1876/240-393-9125
Email: pastor@shepherdsofzion.org

t:
(i)

■Questions Presented'

Did the courts follow the Procedural Due process subject to the 14th
Amendment due process protection?

(ii)

Did the courts violate the rule and the right to presentation of the Sixth
Amendment right to Counsel, under those circumstances the court failed to
provide Counsel for petitioner?

(iii)

Did the courts follow the Civil Due Process clauses of the Fifth and
Fourteenth Amendments the right for Petitioner to present evidences,
witnesses or just based solely on the evidences presented by the Maryland
Motor Vehicle Administration?

(iv)

Can a court deny the filed Writ of Certiorari without providing explanation
as to why the Writ of Certiorari was not desirable in public interest but
proceed with a dismissal of the case without a trial?

(v)

Did the Maryland State courts ignore the fundamental principles of due
process in rejecting the case of Shepherds driving school?

(vi)

Whether a pro se petitioner should be denied request for transfer of agency
records from the Circuit Court of Prince Georges County as a requirement
that the tribunal prepare record of the evidence presented as stated in the
Fifth and Fourteenth Amendments?

(vii)

Should the court close a business that pays State and Federal taxes or as
per an employee who is hired in the capacity of a General Manager
advertising for the business in a private vehicle?

II. LIST OF PARTIES

All parties appeal in the caption of the case on the cover page. The party (s)
involve is active with this proceeding.

YVONNE O. REIGNAT-VODI v. MARYLAND MOTOR VEHICLE
ADMINISTRATION
Driver Instructional License and Certification
(i)

Maryland Court of Appeals Case No. COA-PET-0006-2021

(ii)

Maryland Court of Special Appeals Case No. CSA-REG-2390-2019

(iii)

Circuit Court of Prince Georges County Case No. CAL19-29298.

(iv)

Office of Administrative Hearing Case No. OAH No. MDOT-MVA-16-1929160

n

III. Table of Contents
Pages
(i)

Questions Presented

i

(ii)

List of Parties

11

(iii)

Related Proceedings

n

(iv)

Table of Contents

in

(v)

Table of Authorities

,1V

(vi)

Petition for Writ Of Certiorari

1

(vii)

Opinion Below

1

(viii) Jurisdiction

1
2,3

(ix)

Constitutional Provision Involved

(x)

Statement of the Case

(xi)

1. The Maryland Motor Vehicle falsely claimed that Petitioner employed
an individual who was not licensed as a driving instructor to provide
driver instructional instruction for compensation.
2. The Maryland Motor Vehicle Administration falsely claimed that
Petitioner failed to make operation and student records available for
inspection by the Administration during the school business hours.
19
Argument

4

(xii)

29
REASONS FOR GRANTING THE WRIT
A. The lower court did not follow the procedural due process in the case
of Shepherds driving school.
B. The courts did not follow the V, IV, and XIV Amendments of the
United States Constitution in the case of Shepherds driving school.

(ix)

CONCLUSION

34

(xiii) APPENDIX

in

IV. Tab1e~of Authorities
Cases
Pages
Anderson v. General Casualty Insurance Co, 402 Md. 236 (2007)

14

Consumer Protection Division v. Morgan, 387 Md. 124 (2005)

13

Department of Public Safety of Correctional Service v. Cole, IQ 342
11,22,30

Md. 12 (1996)
Long v. State, 371 Md72, 807 A. 2d 1 (2002)

9

Maryland Department of Transportation v. Maddalone,
13,30

187 Md. App. 540 (2009)

13

Matthew v. Eldridge, 424 U.S. 319 (1976)
Travers v. Baltimore Police Department, 115 Md. App. 395/at
420 (1997)

13

Van Devander v. Voorhaar, 136 Md. App.621 (2001)

13

V. Constitutional Provisions Involved
Pages
United States Constitution, Amendment V,

2

United States Constitution, Amendment VI

3

IV

United States Constitution, Amendment XIV

.3

Statutes & Rules
2

28 U.S.C. § 1257 (a)
Federal Rule of Civil Procedure Rule 60 (a)

18

Maryland Code Annotation. Transportation, II Article 15-109, COMAR
6,10

11.23.01.19D(8)((9)
Maryland Code Annotation Transportation, II Article 15-109, COMAR

14

11.23.01.20.(A5)

v

TVr

Petition- for -Wr it - of-Certior ar i

Yvonne 0. Reignat-Vodi D/B/A Shepherds driving school was subpoena by the
Maryland Motor Vehicle Administration on March 14, 2019 at the Office of
Administrative hearing, 11101, Gilroy Road, Hunt Valley, MD 21031. Petitioner,
Owner of Shepherds driving school located at 7100 Baltimore Avenue, College Park,
MD 20740, suite 100, respectfully petition the United States Supreme Court for a
Writ of Certiorari to review the judgement of the Court of Appeals Maryland in the
case of Shepherds driving school.

V.

Opinions Below

The decision of the Maryland Court of Appeals dismissing the case the case of
Shepherds driving school was unfair and against the United States Constitutional
Amendments. The Court of Appeals Maryland denied Petitioner Petition for Writ of
Certiorari on April 23, 2021 and dismissed the case of Shepherds driving school on
June 8, 2021. The Order of Chief Judge Mary Ellen Barbera of the Court of Appeals
is attached at Appendix (A) at la.

VI.

Jurisdiction

The Court has jurisdiction over the courts but has vague judgements and
constitutional issues. Petitioner/Pro Se filed a Petition for Writ of Certiorari on time
with the Court of Appeals Maryland but was denied on April 23, 2021 and dismissed
the case of the driving school on June 8, 2021. Appellant submitted two Briefs to
1

CourtofSpgcial'Appeals'on-time-but-was-deiiied—T-hree-Motionsweresubmitted-with
the court for extension of time while awaiting Agency records to be transfer to the
Court of Appeals.

The final Briefs was submitted including agency records on

November 2, 2020. The case of the driving school was dismissed on October 13, 2020;
Petitioner invokes the Court’s Jurisdiction under 28 U.S.C. § 1257 (a) having timely
filed the Petition for a Writ of Certiorari within ninety days of the Court of Appeals
Maryland judgement in the case of Shepherds driving school.

VII. Constitutional Provisions Involved
United States Constitution , Amendment V:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
services in time of War or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.

2

United-States-Constitution.^Amendment VI:.
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defense.
United States Constitution , Amendment XIV:
All persons born or naturalized in the United States and subject
to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

3

Statement of the Case
On March 7, 2019, The Maryland Motor Vehicle Administration issued a verbal
instruction that the Administration received a “public complaint” and ordered
Shepherds driving school ceased all operations without official notice. Shepherds
driving school agreed to cease all operations immediately and followed the orders of
Maryland Motor Vehicle Administration. The driving school had been closed for the
past twenty-eight (28) months since March 7, 2019 — present. The Maryland Motor
Vehicle Administration issued a Subpoena Duces Tecum dated February 1, 2019 to
Shepherds Driving School requesting for student files from September 1, 2018 to
December 1, 2018. See Appendix 88a, 89a. There was no procedural due process as
indicated on the notes dated December 21, 2019 by the Maryland Motor Vehicle
Administration. See Appendix 89a. On March 14, 2019, Petitioner received a notice
from the Office of Administrative hearing for a trial to appear in court to close the
business based on false allegations made by the Maryland Motor Vehicle
Administration.
The Maryland Motor Vehicle Administration falsely claimed that Mr. Leonard
Albert Davis was not a licensed instructor and gave false names of instructor’s, staffs
that did not attend Shepherds driving school. See Appendix 89a- 92a. Comparing and
contrast the names on the Maryland Motor Vehicle’s Administration Subpoena Duces
Tecum received was false and did not correspond to the corrected names of instructors
and staffs. The names listed on the Subpoena Duces Tecum did not match with the
4

fs. See Appendix

correct full names

92a. This is a clear indication that the Administration made false allegations against
Shepherds Driving School. It is a routine that before the instructors were hired, by
Shepherds Driving School, Petitioner forwarded instructors information to the
Maryland Motor Vehicle Administration driver’s educational department for
examination and verification. All instructors of the Shepherds Driving School were
verified and confirmed by Mr. William Kraft Section Manager, Room 207, Glen
Burnie, Maryland Motor Vehicle Administration.
Seventeen charges (17) were filed against Petitioner and the driving school by
the Maryland Motor Vehicle Administration. Fifteen (15) of the so-called alleged
charges of violations were thrown out of the Administrative court and only “two”
charges remained as follows:-.

(i)

The Petitioner employed an individual who was not licensed as a driving
instructor to provide driving instruction for compensation.

Such as

indicated as Instructor Leonard Davis in the Subpoena Duces Tecum

(ii)

The Petitioner failed to make operation and student records available
for inspection by the Administration during the school’s business hours.

On March 26, 2019, the Administrative Law Judge Michael Wallace of the
Administrative Court ordered the driving school remained closed, upholding
suspension, pending investigation. After the investigation, the Maryland Motor
Vehicle Administration failed to inform the Administrative Court that there were no
findings in their so-called investigation and all students records have been submitted
5

by"Petttioner'and_husband-Mr.-Smit-h-Vodi-to-the-Administrative-Headquar.ter5_at.
Glen Burnie, Maryland. The Maryland Motor Vehicle Administration did not get
back to Petitioner with any report of their findings of their investigation as they
crumble in their lies based on false allegations. Instead, the Administrative Law
Judge Michael Wallace proceeded with the decision of revoking Shepherds Driving
School licensed and certification without no procedural due process.
In COMAR under Maryland Article, 15-109, Annotated Code of Maryland
11.23.01.19D. The most serious violations include a charge for; (i) Fraud in the
operation of providing instruction; (ii) A sex offense; (iii) crime or moral turpitude;
(iv)contributing to the delinquency of a minor, (v) An offense involving a controlled
dangerous substance; (vi) An offense involving alcohol or drugs while operating a
motor vehicle; (vii)A felony involving the use of Motor Vehicle. It is quite clear that
the driving school did not commit any of these violations.

As such, the allegations

of violations were the first since the start of the driving school in May 2017 — March
2019. There was no citation, warning, fines on the so-called violations, no conference,
mediation, meetings, etc. given by the Maryland Motor Vehicle Administration. It
was an immediate suspension and the closure of the driving school.
Shepherds Driving School has been closed for the past twenty-eight months
(28) by the Administrative courts since March 7, 2019 - present.

Since the

commencement of the driving school on May 24th 2017, Shepherds Driving School was
Licensed, Insured, and Bonded by the State of Maryland and was certified by the
Maryland Motor Vehicle Administration to provide 36 hours driver’s education
6

progTam'services'to'the'public-'
in classroom education and six hours behind the wheel instructor’s training to the
public in the State of Maryland.
All instructors of the driving school were hired by Petitioner and was certified
by the Maryland Motor Vehicle Administration to provide 30 hours classroom
instructional education and six hours behind the wheel instruction to the Public.
Shepherds driving school paid both State and Federal taxes for business and for its
employee since the start to the closure of the driving school in March 2019 there is a
showing and its desirable in the public interest. This is a black owned operating
business that involves students from Colleges, Universities, and the public in
Maryland.
Here are list of instructor’s and staffs who worked for Shepherds driving school
from May 2017 - March 2019 as follows:(i)

Yvonne O. Reignat-Vodi - Owner/CEO -Instructor’s ID- 35488

(ii)

Smith Kwame Oliver Vodi - General Manager

(iii)

Azubuike Nwaolu - Instructor - Instructor’s ID- 35195

(iv)

Earl Gary Garner - Instructor - Instructor’s ID - 11389

(v)

Eddy Marilyn Ramirez - Instructor - Instructor’s ID - 15916

(vi)

Leonard A. Davis - Instructor - Instructor’s ID - 16047

(vii)

Wilfred Sahr Pearce — Instructor - Instructor’s ID - 14660

(viii) Kenneth Lee Seivers — Instructor - Instructor’s ID - 35534
(ix)

Tamba Dunyakor Esseh-Kaminjah - Instructor’s ID - 11779
7

(x)

Samuel'Torres'Quinoga—Instructor--Instructor’sTD'-T3805-

(xi)

Jessica Michaca Contreras — Secretary I

(xii)

E stella Vadefane - Secretary 2

(xiii) Glenda Lisbeth Mejia Mena - Secretary 3
(xiv) Jennifer A. Cruz - Secretary 4 and
(xv)

Volunteers Church staffs at Shepherds of Zion Ministries Inti. Church Substituting Receptionist

The instructors listed above provided classroom and behind the wheel
instruction to all Shepherds Driving School students. All student records for both
classroom and behind the wheel instruction were signed by Petitioner and the
certified instructors listed above.
The Maryland Motor Vehicle Administration claimed that Petitioner employed an
individual who was not licensed as a driving instructor to provide driving instruction
for compensation.
On May 2017, Mr. Smith Kwame Oliver Vodi who is Petitioner’s husband was
hired as the General Manager of Shepherds Driving School. Mr. Smith Vodi was
previously licensed as a certified driving instructor by the Maryland Motor Vehicle
Administration and worked for Admiral driving school. Mr. Smith Vodi was also an
approved interpreter for the Maryland Motor Vehicle Administration for both Circuit
and District Court in the State of Maryland.

Mr. Smith Vodi driver instructional

licensed was revoked on June 5th 2012 based on false allegations by the Maryland
Motor Vehicle Administration. As such, there was no warning, citation given to Mr.
8

SmithWodron-the-so-called-allegations—Mi^Smith-Vodi-was-asked_to_pay_aJme_of
one $2,000.00, but the fee option was cancelled by the Maryland Motor Vehicle
Administration. There was no procedural due process in the case of the revocation of
Mr. Smith Vodi driver instructor’s license and certification.
Mr. Smith Vodi an immigrant, came to the United States to seek better life,
dream big, help his family, and the Community was forced to sign a “consent order”
under duress and was threatened by Mr. William Kraft driver’s educational services
of the Maryland Motor Vehicle Administration, and if Mr. Smith Vodi do not sign the
consent order he will be deported to his Country of origin. The fear of Mr. Smith Vodi
to be deported to his Country made him signed the consent order. In addition, the
courts cannot modify a consent order without giving the parties notice and an
opportunity to be heard because to do otherwise would violate the parties’ right to due
process Long v. State, 371 Md 72, 807 A. 2d 1 (2002). Mr. Smith Vodi now a Citizen
of the United States is ready to fight back, hold the Maryland Motor Vehicle
Administration accountable for hate, prejudice, and discrimination.
The revocation of Mr. Smith Vodi driver’s instructional license does not
prohibit him to work in the capacity of a General Manager of the driving school. As
such, there is no rule under the Maryland Annotated Code Regulations COMAR
11.23.01 driving schools, which states that Mr. Smith Vodi should not be hired by
Shepherds Driving School as the General Manager and performed such duties.
The evidences presented by the Maryland Motor Vehicle Administration was
insufficient to prove that Petitioner hired an individual who was not licensed as a
9

driving instructor to provide'anyTlTivingTnstructionTor-compensationrT-he-M-arylandMotor Vehicle Administration violated COMAR, and wrongfully used Annotated Code
of Maryland Article 15-109 11.23.01.19D(8)(9); Acting in a manner that is unsafe for
students participating in the program, and COMAR 11.23.01.D.(9). Permitting
instruction in the operation of a motor vehicle while an instructor’s license is refused,
suspended, or revoked. Mr. Smith Vodi has not been an instructor since June 5 2012
and do not hold a driver instructional license. Mr. Smith Vodi surrendered his driver
instructor’s licensed to Mr. William Kraft, Assistant Manager drivers educational
service, Room 207, Glen Burnie, Maryland. Mr. Smith Vodi was hired at Shepherds
driving school as a General Manager and NOT as a driving instructor. There was no
proof by the Administration that the vehicle Mr. Smith Vodi was driving was the
driving school’s vehicle. All students were driven by Petitioner, and the driving
school’s eight (8) instructors certified by the Maryland Motor Vehicle Administration.
Shepherds Driving School witnesses including instructors, and staffs did not testify
during the Administrative court hearing. This is against the constitutional law for
not letting the driving school witnesses testify.
Written testimonies of the driving school students were presented to
Administrative Law Judge Michael Wallace but failed to accept the testimonies in
the case of the driving school. No students or staffs testify during the Administrative
hearing of seeing Mr. Smith drove students in training vehicles at the driving school.
The Circuit Court of Prince Georges County affirmed the decision of the
Administrative courts based on alleged marketing videos found on the internet and
10

entered_evidenc_e‘without'any'testimony-£rom-MrrSmith-Vodi-neither-the-allegedstudent Mr. Jipei Cui, It is a fact that during the Administrative court proceedings,
the authenticity of evidence must be established. “Department of Public Safety &
Correctional Service v. Cole 79 342 Md. 12(1996). The Maryland Motor Vehicle
Administration introduced the testimonies of investigators as a way of making their
decision for the revocation of the driving school’s license and certificate. There was
no evidence that the videos are what the Maryland Motor Vehicle Administration
claimed they are and what the courts apparently found them to be. The video evidence
presented by the Maryland Motor Vehicle Administration has no elements of
violation of the Maryland Transportation Article and COMAR 11.23.01 section 15709. Mr. Smith Vodi was fully aware of his duties as a General Manager and
performed such duties at the driving school. As such, those videos were taken from
Shepherds Driving School social media page on Facebook.
Mr. Smith Vodi did not accept any compensation from students at the driving
school. There was no evidence by the Maryland Motor Vehicle Administration of Mr.
Smith Vodi’s signature could not be found on any of the student records. The
allegations by the Maryland Motor Vehicle Administration were untrue and was used
to damage the character Mr. Smith Vodi, and the reputation of Shepherds Driving
school.

It was Petitioner’s request during the Administrative hearing that the

Maryland Motor Vehicle Administration present to the Administrative court proofs
of the alleged student Jipei Cui driving school’s records, but the Maryland Motor

11

Vehicle-Administration''failed-to_do—so:—Evidently,-Mr.-dipei-Cui-did-not-attendShepherds driving school based on his Learner’s permit. See, Appendix.83a
Former Counsel Shepherds Driving School, Erek Barron filed a petition for
judicial review on August 29, 2019 stating that the Maryland Motor vehicle’s
Administration decision to revoke the license of the driving school was unreasonable
without authority based on the evidence submitted during the Administrative
hearing. All video evidences were taken from Shepherds Driving School’s social
media page and the Maryland Motor Vehicle Administration failure to make
available posted business hours was insufficient and unfair.
The Administrative court failed to determine the videos presented in court
whether Mr. Smith Vodi was acting as an unlicensed driving instructor or creating
an advertisement video for the driving school. The Administrative Court failed to
determine through forensic evidence whether the vehicle Mr. Smith Vodi was driving
was his personal vehicle or the driving school’s vehicle. There were no proofs of the
Maryland Motor Vehicle investigators at the Administrative hearing showing that
Mr. Smith Vodi was acting as an instructor driving students as the alleged student
Mr. Jipei Cui did not attend Shepherds driving school.
The Maryland Motor Vehicle Administration would have clarified such
evidence at the Administrative hearing if it would have been done during their socalled inspectors from the compliance department of the Maryland Motor Vehicle
Administration. The claim by the Maryland Motor Vehicle Administration inspectors
that Mr. Jipei Cui was a student of Shepherds driving school was false. There was no
12

'violation'committed*bythe-driving-school—It-isevident-in-the-GOurt-reGords-that-Out.
of nine hundred plus students that attended Shepherds driving school from May 2017
to March 2019, only two students reported Petitioner, the driving school, and its
instructors to the Maryland Motor Vehicle Administration.
The Administrative court proceedings violated Shepherds driving school and
Petitioner’s right to due process as the decision was not supported by substantial
evidence. Matthew v. Eldridge, 424 U.S. 319 (1976) initiated that Administrative
hearings are granted “flexible due process” considering cost benefit analysis test
balancing, these three factors; the private interest that will be affected by the actions
of officials, the chance of an erroneous determination through the process accorded
and the probable value of added procedural safeguards; and the public interest and
administrative burdens, including cost, that additional or substitute procedures
would entail. Maryland courts have found limits to this flexibility. Example, Even
though hearsay may provide the sole basis for an administrative decision, it still must
demonstrate sufficient reliability and probative value to satisfy the requirement of
procedural due process.” Travers v. Baltimore Police Department, 115 Md. App.395
(1997).
It is a fact that administrative decisions required due process and must be
supported by substantial evidence. See e.g., Maryland Department of Transportation
v. Maddalone, 187 Md. App. 549 (2009); Consumer Protection Division v. Morgan, 387
Md. 125 (2005); Van Devander v. Voorhaar, 136 MD. App. 621 (2001). This
requirement applies to facts and inferences. Travers, 115 Md.App.at420; see also
13

-AridersorL~V7General-Casualty-Insurance-Gor402-MdT236-(200rl).-The~AdmijiistraLtiv£.
court hearing lacked procedural process and evidently safeguards, the decision was
supported by insufficient evidence, and even assuming the violations were proven,
the resulting punishment to Petitioner and the driving school was unreasonable.
The Maryland Motor Vehicle Administration claimed that Petitioner failed to make
operations and student records available for inspection by the Administrative during
business hours.
Shepherds Driving School did not deny access of Maryland Motor Vehicle
inspectors for the inspection of student records. All student records were made
available for inspection. In COMAR Under Transportation Article, 15-109, Annotated
Code of Maryland, 11.23.01.20.(A5), A business office of a licensed drivers’ school
shall; “Be open for business to the public and open for inspection by the
Administration during posted business hours; No evidence was presented by the
Maryland Motor Vehicle Administration during the Administrative hearing serves as
a proof that the investigators went to the driving school during posted business hours.
There were no posted business hours in COMAR by the Maryland Motor
Vehicle Administration. But the Maryland Motor Vehicle Administration used the
above rule in the case of the driving school as a false claim stating that Petitioner
failed to make operational student records available for review. Apparently, twelve
(12) white binders of student records from the term May 2017-March 7, 2019 finished
and unfinished were handed over in person by Petitioner and her husband Mr. Smith
Vodi to Ms. Lacheryl Jones, David C, Merkin and William Kraft of the Maryland
14

2 019'an d"March_ 292049rrespectively:
Evidence of student records to the Maryland Motor Vehicle Administration on March
29, 2019 after the Administrative hearing can be found in the Appendix 131a.
On February 7, 2020, Petitioner filed an appeal with the Maryland Court of
Special Appeals. First, to be clear, there were no Agency records transferred from the
Circuit Court of Prince Georges County Maryland to the Court of Special Appeals at
the start of the case of the driving school. Agency records must be transferred for the
Court to be able proceed with the case, instead the court proceeded issuing out fake
orders while Petitioner await Agency records from the Circuit Court of Prince Georges
County to the Court of Special Appeals, but the court failed to do so. This is in
violation of the constitutional laws.
Due to the delay of the Circuit Court of Prince Georges County transferring
Agency records to the Court of Special Appeals, Petitioner filed three (3) motions to
extend time for filling Petitioner briefs. There were no delays as the motions were
filed on time. First Motion to extend filling was filed on August 26, 2020; Second
Motion filed on September 14, 2020 and Third Motion file on September 24, 2020 .
Two of the motions were denied by the Court of Special Appeals, knowingly that
Prince Georges Circuit Court have not transfer

agency records to complete the

Petitioner’s Briefs. The second motion to Extend Time requested by the Maryland
Court of Special Appeals requested that Petitioner filed it Briefs for the case of the
driving school. Petitioner filed two Briefs with the Court of Special Appeals and both
briefs were denied because there were no Agency records with its inclusion to
15

comprete^Petitioner’scorrected'Briefs-Theri7t1ie'third'motion'toextend'ti'nre~foT'fiimg
was submitted to the Court of Special Appeals on September 24, 2020.
On August 11, 2020, the Court of Special Appeals issue an order directing the
Circuit Court of Prince Georges County to transmit Agency records with its inclusion.
A third motion of extension of time was submitted to the Court of Special Appeals on
September 24, 2020. Petitioner knowing that the transfer of Agency records to the
Court of Special Appeals were late for the submission of corrected briefs, eventually
Petitioner submitted the third briefs including agency records.
There was a lot of inconsistencies with the Court orders identified by Petitioner
to the Court of Special Appeals but were not corrected. Clerical mistakes on case
numbers made on the Court docket entries were identified by Petitioner to the Court
of Special Appeals but no action was taken. The Court of Special Appeals granted
the Maryland Motor Vehicle Administration an extension of time to submit its briefs
while Petitioner was still waiting for Agency records to be transferred from the
Circuit Court of Prince Georges County to the Court of Special Appeals. No briefs
were submitted to the Court of Special Appeals by the Maryland Motor Vehicle
Administration. The third Briefs with Agency records and its inclusion was submitted
to the Court of Special Appeals on November 2nd 2020.
Transfer of Agency records from the Circuit Court of Prince Georges County
Maryland to the Court of Special Appeals is a requirement that the tribunal prepare
record of the evidence presented as stated in the Fifth and Fourteenth Amendments
of the United States Constitution. The Court of Appeals failed to acknowledge the
16

negligence "ofthe'Circuit-Gourt'of-Prince-Georges-County-for-not-transferring_Agencx
records on time but willfully dismiss the case of the driving school with prejudice on
October 30th 2020.
On March 1, 2021 Petitioner filed an appeal with the Court of Appeals
Maryland together with a Petition for Writ of Certiorari for the case of Shepherds
driving school. The Petition for Wirt for Certiorari was filed on time. On April 23
Petitioner received an order that the Writ of Certiorari has been denied by the Court
of Appeals, and on June 8, the case of the driving school was dismissed.
Several questions were raised by Petitioner to the Clerk and Chief Judge as to
why the Case of the driving school has no showing that review by certiorari is
desirable and in public interest?

Shepherds driving school was an educational

institution that provide service to the public. The driving school was licensed,
insured, and bonded by the State of Maryland to provide driver education. A thirtysix-hour driver education program to the Public as such Shepherds driving school file
it taxes each year and employed certified instructors by the Maryland Motor Vehicle
Administration to provide driver’s educational services to the public. Therefore, it is
a show that the driving school is desirable and in the public interest. The Clerk,
Suzanne Johnson and the Chief Judge Mary Ellen Barbera of the Maryland Court of
Appeals failed to answer questions presented by Petitioner dated May 25, 2021. See
Appendix 31a,39a-47a.

17

There-was“to"o-many-mistakes-and-irregularities-on-the-cour-t-order-s._and
decisions of the Maryland Court of Appeals. Petitioner noticed a significant error on
Chief Mary Ellen Barbera’s Order dated April 23rd 2021 stating the “Petitioner filed
a Writ of Certiorari at the Court of Special Appeals” Maryland. This was incorrect,
as Petitioner filed Petition of Writ for Certiorari to the Court of Appeals Maryland
and not vice versa. Subsequently, on the Court of Appeals letter dated May 13, 2021
it states, “We are treating your pleading as motion for reconsideration” see Appendix
32a. Petitioner has grounds in the case of Shepherds driving school and did not make
a plea with the Court of Appeals. This was a false claim by the court, Petitioner
Objected to the Chief Judge’s order dated May 10, 2021. As such, Objection and a
plea are two different factors. See Appendix 60a-68a.
It is evident that clerical mistakes can be corrected by the courts, but the Court
of Appeals failed to do so, as such dismissed the case of the driving school. Federal
rule of Civil Procedures Rule 60 (a) Relief from a Judgement or Order h

1 Rule 60 (a) Relief from a judgement or Order. Corrections based on Clerical Mistakes
Oversights and Omissions; The Court may correct a clerical mistake or a mistake arising
from oversight or omission whenever one is found in a judgement, order, or other part
of the record. The court may do so on motion or on its own, with or without notice. But
after an appeal has been docketed in the appellate court and while it is pending, such a
mistake may he corrected only with the appellate court’s leave

18

ARGUMENT

On March 26, 2019 in the case of the driving school, the Maryland Motor
Vehicle Administration failed to follow procedural due process. Shepherds driving
school staffs, witnesses did not testify during the Administrative hearing and in the
Circuit Court of Prince George’s trial.
The Maryland Motor vehicle Administration had seven witnesses testified
during the Administrative hearing and none of Shepherds driving school instructors,
staffs, present at the hearing were given the chance to testify. This is against the
United States Constitution XIV Amendment. The Administrative Court ruling in
favor of the Maryland Motor Vehicle Administration was unfair and shows lack of
credibility, and the manipulative act between the Maryland Motor Vehicle
Administration and the Courts. The Administrative Court revoked the license and
certification of Shepherds driving school without following procedural due process.
The Administrative Court failed to inquire with the Maryland Motor Vehicle
Administration if they have followed the basic standard operational procedures in the
case of Shepherds Driving School. As such closed the driving school on March 7, 2019.
Maryland Motor Vehicle falsely claimed that Petitioner hired and unlicensed driver
instructor to work for Shepherds driving school.
On January 9, 2020 during the Circuit Court of Prince Georges County
hearing, the Maryland Motor Vehicle Administration claimed that Petitioner hired

19

an_unlicensed—instructor

-T-his—was—a-false~claim_as_Mr._Smith Vodi. who is

Petitioner’s husband was hired as the General Manager and performed such duties.
Though Mr. Smith Vodi’s instructional license was wrongfully revoked on June 5’
2012 without the due process followed by the Maryland Motor Vehicle
Administration. However, the revocation of Mr. Smith Vodi’s instructional license
and badge does not prohibit him to work as the General Manager for Shepherds
driving school. As such, there is no rule in the code of Maryland Agency Regulations
COMAR 11.23.01 driving schools that prohibits Mr. Smith Vodi should not work in
the Capacity of a General Manager for Shepherds driving school.
There was no evidence presented during the Administrative hearing except the
false video taken from Shepherds Driving School social media page with the alleged
student Mr. Jipei Cui who did not attended the driving school driving along with Mr.
Smith Vodi to his church’s Feeding the Hungry Food Distribution program. A copy
of Mr. Jipei Cui’s license was handed over to the Administrative Law Judge Michael
Wallace during the Administrative hearing. See Appendix 83a.
Petitioner requested that the Maryland Motor Vehicle Administration provide
proof of Mr. Cui’s driver educational courses both classroom and behind the wheel
records including his Soundex number to the courts as a proof if Mr. Jipei Cui
attended Shepherds driving school. The Maryland Motor Vehicle Administration
failed to hand over certified driver education records of Mr. Cui to the court during
the Administrative hearing.

20

More—sot—There—1were—no-investigators—from_the_Marvland Motor Vehicle
Administration in the private vehicle with Mr. Smith Vodi to testify during the
Administrative hearing that he/she was in the vehicle with Mr. Smith Vodi and Mr.,
Jipei Cui when the video was posted on social media. The video reflecting the vehicle
presented in court was not Shepherds Driving School Training vehicle. It was a
private vehicle with no training features such the Maryland Motor Vehicle training
stickers on it neither with the name “SHEPHERDS DRIVING SCHOOL”, boldly
written on all school vehicles. Also, shepherds driving school training vehicles has
the Maryland Motor Vehicle approved Training Vehicle decals on the front
windshield. The vehicle was Mr. Smith private vehicle, which was registered under
Petitioner ‘s name with the Maryland Motor Vehicle Administration.
Further, the Maryland Motor Vehicle claimed during the Administrative
hearing that Mr. Smith wore a T-Shirt emblazoned the word “instructor”. It is obvious
that Petitioner who is the owner of the driving school designed T-shirt to advertised
for shepherds driving school. T-shirt were given to instructors, staff members and
student volunteers that attended the driving school free as a way of doing publicity
to enable new customers to register for the driving school.

Petitioner has no

restriction of who wore the t-shirts as all instructors, staffs, volunteer staffs, were
allowed to wear the T-shirts. Samples of the T-shirts were taken to court during the
Administrative hearing as a proof that the t-shirt was designed by Petitioner, but
Administrative Law Judge Michael Wallace rejects the t-shirt evidences.

21

Thre'evidenceswerenotasthe-Maryland-MotGi-VehieleAdministration-claimed
it to be. During the court’s proceedings, the authenticity of evidence must be
established. Department ofpublic Safety & Correctional Service v. Cole 79 342 Md. 12
(1996).

The Maryland Motor Vehicle Administration further introduced false

testimonies of investigators as a way of making their decision for the close of
Shepherds driving school.
The Maryland Motor Vehicle Administration presented a vague argument
during the Administrative court hearing against Mr. Smith and based solely on a
false claim that Mr. Smith Vodi drove a student but failed to tell the courts the
description of the vehicle that Mr. Smith Vodi was driving with the alleged student.
Mr. Jipei Cui was not present and did not testify during the Administrative hearing
neither the Circuit Court of Prince Georges trial. The video was solely for marketing
and promotional purposes and was done during Christmas season to say thank you
to our students for choosing the driving school. Nothing else was in exchange for the
videos and did not caused any harm to the public.

There was a lot of errors,

irregularities, and manipulation during the Administrative hearing. Also, there were
too many errors in the original court transcript of Shepherds driving school and
Petitioner finds that very misleading by the courts during the Circuit Court and
Administrative hearing.
Second, The Maryland Motor Vehicle Administration falsely claimed that Mr.
Smith Vodi drove alleged student Ms. Leena Mohamed a former student of Shepherds
driving school between September 2018 - December 2018. Mr., Smith Vodi did not
22

firove-Ms~beenaH\lohamed—T-he~two-certified-instructors-that_droye Ms. Leena
Mohamed was State Trainer Earl Garner and Mr. Leonard Albert Davies. The two
instructors were certified by the Maryland Motor Vehicle Administration and was
hired by Petitioner at the driving school. See Appendix 86a, 87a. Mr. Earl Garner
has worked with Shepherds driving school since the commencement of Shepherds
driving school in May 2017 until March 2019 when the driving school got closed by
the Maryland Motor Vehicle Administration. Both instructors were present during
the Administrative hearing but were not called to testify. All classrooms and behind
the wheel records was signed by Petitioner, and the two certified instructors, Mr. Earl
Garner and Mr. Leonard Davies for Ms. Leena Mohammed were submitted to the
Administrative Law Judge Michael Wallace during the Administrative hearing for
verification. The Administrative court did not call Instructor Trainer Mr. Earl Garner
and Instructor Mr. Leonard Albert Davies who the alleged student reported to testify
during the Administrative hearing.
Ms. Leena Mohammed in her testimony during the Administrative hearing
confirmed to Administrative Law Jude Michael Wallace that she completed her (36)
hours classroom lesson with Petitioner, and six hours behind the wheel lessons with
both instructors Mr. Earl Garner and Mr. Leonard Davis and have passed her driving
test with the Maryland Motor Vehicle Administration and obtained her Provisional
Driver’s License. This act by the Administrative court is in violation of the VI
Amendment of the United State Constitution for not allowing the driving school’s
witnesses to testify during the Administrative hearing.

23

'Marvland~Motor~Vehicle-falselv-claimed—that-Betitioner/Licensee failed to make
operations and student records available for inspection bv the Administrative during
school business hours.
All student records were made available to the Maryland Motor Vehicle
Administration inspectors upon their visits to the driving school. The inspectors were
not denied access to student records as they have been coming to the driving school
to inspect student records since May 2017-March 2019. As such, the inspectors
wanted to take the records away without any proper certified documentation signed
between the driving school and the Maryland Motor Vehicle Administration. Though
it seems like the inspectors were on a fishing expedition as stated by former Counsel
of Shepherds driving school Bert Kapinus , Petitioner allowed the inspectors to review
and take the records with them, the inspectors did not take the records away hut
promised to come back at 12:30pm after class time to pick up student records. But
the inspectors did not come back to Shepherds driving school to pick up the records
requested by the Maryland Motor Vehicle Administration.
The Maryland Motor Vehicle Administration failed to establish a necessary
element of regulatory violation, for the driving school’s posted business hours. No
evidence was introduced during the Administrative hearing to substantiate that their
investigators went to the business during posted business hours. The inspectors of
the Maryland Motor Vehicle Administration falsely testify that there was valid
evidence of them going to the driving school to obtain records. All student records
were made available for inspection. The inspectors were not denied access to student
24

rec.orfe~but,~failed-to-come-a£ter-class-session-to-the.driving_school as they promised
to pick up the records but did not show up. Petitioner, and Mr. Smith Vodi took all
students records to the Administrative hearing on March 26, 2019; but the Maryland
Motor Vehicle Administration failed to accept the required student records.
Eventually, Petitioner and Mr. Smith Vodi took all student records to the Maryland
Motor Vehicle Administration Headquarters at 6601 Ritchie Highway, Glen Burnie,
MD 21062, Room 207 and handed over in persons to Ms. LaCheryl Jones, Mr. David
C. Merkin and Mr. William Kraft of the Maryland Motor Vehicle Administration on
the March 27th 2019 and March 29th 2019 respectively. See Appendix 129a, 130a.
On August 29, 2019 former Counsel for Shepherds driving school Erek Barron
demanded the Circuit Court of Prince Georges County vacate the Administrative
decision and remand the matter. But the Circuit Court of Prince George’s County
failed to accept the Petition for judicial review for Shepherds Driving School, as such
affirmed the decision of the Administrative court. There was no procedural due
process in the case of Shepherds driving school.
At the Administrative hearing, the school had two Counsels. Counsel Bert
Kapinus represented the driving school during the administrative hearing but failed
to present evidences of the driving school. All driving school evidences submitted by
Petitioner to Counsel Bert Kapinus was not submitted to the judge during the
Administrative hearing. As such, Mr. Kapinus connived with the Maryland Motor
Vehicle Administration and handed over Shepherds driving school evidences to the
Maryland Motor Vehicle Administration and used the evidences against the driving
25

'schoolr~Counsel-Bert~Kapinus-faiIed-to-obiect-to-the-false_allegations made by the
Maryland Motor Vehicle Administration during the Administrative hearing. The
official transcript of the Administrative hearing was a proof that there was no
objection by Counsel Bert Kapinus in the case of the driving school.
Counsel Erek Barron did not defend the driving school during the trial at the
Circuit Court of Prince Georges County, but connived with the Maryland Motor
Vehicle Administration and the Circuit Court to dismiss the case of the driving school.
There was no defense in favor of the driving school. Petitioner requested for different
Counsel to represent shepherds driving school, but the request was denied by Judge
Crystal D, Mittelstaedt of the Circuit Court of Prince Georges County and this is in
violation of the VI Amendment for failing to provide Petitioner the right to a Counsel.
The case of the driving school was dismissed with prejudice.
On February 7, 2020 Petitioner filed the case of Shepherds Driving School at
the Maryland Court of Special Appeals. The Court of Special Appeals requested that
the Circuit Court of Prince Georges County transfer Agency records with its inclusion
to the Maryland Court of Special Appeals. The Circuit Court of Prince Georges
County failed to transfer Agency records on time for Petitioner to complete its
corrected briefs for submission the Court accordingly. Petitioner submitted three
Motions to Extend time for filing Appellant’s Corrected Briefs with its inclusion on
the consecutive dates as follows: First Motion August 26, 2020, Second Motion
September 14, 2020, and Third Motion September 24’ 2020, respectively, while awaits
the records from the Circuit Court of Prince Georges County to be transferred over to
26

thed!lourt'ofSpecial*Appeals-but-failed-to-do-so-on-time—Finally. .Retitioner was able
to complete the corrected briefs including Agency records and submitted it to the
Court of Special Appeals on October 29, 2020. After Petitioner submitted the Briefs
to the Court of Special Appeals, the case of the driving school was dismissed without
no procedural due process. Transfer of Agency records from the Circuit Court of
Prince Georges County to the Court of Special Appeals is a requirement that the
tribunal prepare record of the evidence presented as stated in the Fifth and
Fourteenth Amendments of the United States Constitution, but the courts failed to
do so and dismiss the case of Shepherds driving School.
Petitioner filed a Petition for Writ of Certiorari with the Maryland Court of
Appeals on March 1, 2021. After 6 weeks the court dismissed the Petition for Writ of
Certiorari claiming that the Writ of Certiorari has no show and was not desirable in
public interest. How can the case of a well reputable educational institution not be
desirable in public interest? Shepherds driving school was open to the public between
May 2017- March 7, 2019 Shepherds driving school was approved by the Maryland
Motor Vehicle Administration for thirty-six hours driver educational program. Thirty
hours was for in classroom and six hours behind the wheel instruction.
Shepherds driving school hired trained certified instructors by the Maryland
Motor Vehicle Administration to teach driver’s education in both English and
Spanish. As such, the driving school was licensed, insured, and bonded by the State
of Maryland to service the public interest. All taxes for the driving school were filed
each year accordingly. Petitioner requested that the Court of Appeals explained why
27

the~case'of~the~driving-school-was-not-desirable-in-Dubl-ic-interest._The Clerks and
Judges of the Court of Appeals failed to do so. Not only did Petitioner desired for
answers for the Petition for Writ of Certiorari from the Court of Appeals but was
disappointed about mistakes and irregularities on the Courts Motions, Orders from
the Clerks and Judges of the Court of Appeals. The Court of Appeals failed its duty
to explain it decision except denied the Petition for Writ of Certiorari and dismiss the
case of the driving school with prejudice.
It is Petitioner’s humble request that this court call for the original transcripts
from the Office of Administrative hearing and the Circuit Court of Prince Georges
County for the case of Shepherds Driving School, see the blatant lies, and the abuse
of power by the Maryland Motor Vehicle Administration in the court proceedings for
Shepherds Driving School. Evidently, over nine hundred plus students attended
Shepherds Driving School in May 2017 - March 7, 2019, only two (2) students
reported the driving school in the month of March 2019. The Maryland Motor Vehicle
Administration pretended as if Petitioner has committed the most criminal offense
in history. As a United States Citizen. Petitioner, deserve the right to a fair trial and
request that the Supreme Court of the United State hold the lower courts accountable
for going against the V, VI, and XIV Amendments of the United States Constitution
in the case of Shepherds Driving School.

28

REASONS FOR GRANTING THE PETITION
A

To circumvent incorrect decisions of the right to Procedural due

process, transfer of Agency records and the right to Counsel of this case.
The decisions of the lower courts were void since the start of the case. This
court should clarify the “decisions” of the courts denying and dismissing
the case of Shepherds driving school.
The Maryland Motor Vehicle Administration had seven (7) witnesses testified
against Shepherds Driving School and none of the driving school’s witnesses present
during the administrative hearing were given the chance to testify. This is in
violation of Amendment VI of the United State Constitution.
Since the administrative hearing there was a blatant lack of procedural and
substantive due process, the lack of substantial evidence presented demonstrate the
latent hostility towards Mr. Smith Vodi. The Administrative central evidence in the
case of Shepherds driving school is unauthenticated promotional videos posted on
social media that the Maryland Motor Vehicle Administration characterized as
showing an unlicensed individual. All other evidence by the Administration
inspector’s testimonies that Petitioner denied access to student records during
unspecified times were false. Though a times, hearsay or may provide the sole basis
of an administrative decision, is still “must” demonstrate sufficient reliability and
probative value to satisfy the requirement of procedural due process. The Maryland

29

'Motor~Vehicle-Administration-unreliable_evidence was insufficient to prove the
administrative courts findings and the court’s decision was unreasonable. In addition,
minimal due process requirements, administrative decisions must be supported by
substantial evidence. Maryland Department of Transportation v. Maddalone, 187
Md. App. 549 (2009). As such, in administrative proceedings, the authenticity of
evidence must be established. Department of Public Safety & Correctional Services v.
Cole, 79, 342 Md. 12 (1996). The Administrative Court introduce the testimony of
inspectors, without any sworn statement or testimony from Mr. Smith Vodi or alleged
student drivers Jipei Cui in the video. There clearly is no evidence that the videos
are what the Administration claimed they are or what the Administrative court
apparently found them to be.
The Administrative court findings that Shepherds Driving School violated
Maryland Code of Regulations 11.23.01.07 by failing to make available student
records available for inspection by the Administration was unsubstantiated by the
evidence in the record.

The Maryland Motor Vehicle Administration, failed to

introduce any evidence establishing Petitioner’s business posted business hours. The
Maryland Motor Vehicle Administration did not introduce any evidence supporting
its allegations that Shepherds driving school prohibited the Administration from
reviewing operational and student records during posted business hours. There was
no due process since the beginning of the case of the driving school as such, the
Maryland Motor Vehicle Administration also violated constitutional laws.

30

The~Court-of-Special-Appeals-and.the_Circuit Court of Prince Georges County
Maryland failed to transfer agency records with its inclusion at the beginning of the
case. Failing to transfer agency records by the tribunal is against the constitutional
right of the Petitioner. As such the delay of the transfer of agency records by the
Circuit Court of Prince Georges County made Petitioner not to complete its third and
corrected briefs on time. Therefore, with no agency records Petitioner’s corrected
Briefs would not be submitted to the court at all. Eventually, Agency records were
transferred over to the Court of Special Appeals on September 8, 2020 but Petitioner
was not notified by the court regarding the arrival of the records until September 22,
2020 the Clerk Gregory Hilton of the Court of Special Appeals confirmed over a
telephone conversation with Mr. Smith Vodi that the records have arrived at the
court. The Clerk recommended that Sir Speedy picked up the records to make copies.
See Appendix 77a-80a. Instead, the court acted with negligence, deliberately issued
fake orders dismiss the case of the driving school with prejudice in violation of
Constitutional laws.
The United State Court of Appeals for the Fourth Circuit entered a decision in
conflict with prior decisions from the Court of Special Appeals, Circuit Court of Prince
Georges County, and the Administrative court. The Court of Appeals based solely on
the same decisions that the courts as so far avoided the respectable, and ethical aspect
of judicial proceedings. It is a fact that the courts have acted despicable in an
unlawful manner that the Clerks, Judges and Chief judges of the courts has connived
with the Maryland Motor Vehicle Administration giving out FAKE Orders based oh

31

'false~fmdings-and-conclusion.olthe.law in the case of Shepherds Driving school. The
Courts continuously denying and dismissing Petitioner’s appeal to cover up
Petitioner’s $5,000,000.00 (FIVE MILLION DOLLARS) compensation request to the
courts against the Maryland Motor Vehicle Administration for damages caused to
Shepherds driving school and its employee.
This case presents this Court with an opportunity to clarify the lower court'
“decisions” for not following the procedural due process in the case of Shepherds
driving school. The constitutional law was not followed. It is Petitioner’s humble
request that this court order the -Maryland Motor Vehicle Administration to
compensate Petitioner for lost income, wages, time, and money wasted, including
Petitioner’s credibility, defamation of character and the credibility of Shepherds
Driving School. This is a clear act of discrimination by the Maryland Motor Vehicle
Administration against a black owned business in the State of Maryland. In as much,
Shepherds of Zion Ministries International Church founded by Mr. Smith Kwame
Oliver Vodi has been affected financially due to the close of Shepherds Driving School
by the Maryland Motor Vehicle Administration.
The close of the driving school by the Maryland Motor Vehicle Administration
has affected the operations of the Ministry financially and all its programs serving
the Community since March 2019. There have been no services held for the Ministry
due to financial hardship. The President, Founder and Principal of Shepherds of Zion
Ministries International Church, Rev. Smith Kwame Oliver Vodi was solely relied on
Shepherds Driving School for the swift operations of the Ministry. Also, Petitioner
32

request that this court Reinstate Shepherds Driving School located at 7100 Baltimore
Avenue suite 100, College Park, Md 20740 and Petitioner’s Driver Instructional
license and certification. At the same time, Reinstate all instructional license and
certification belonging to Mr. Smith Kwame Oliver Vodi.

33

CONCLUSION
For this foregoing reasons, Petitioner respectfully request that this Court issue
a Writ of Certiorari to review the decisions of the Maryland Court of Appeals.

DATED this

day of July, 2021.

Respectfully submitted,

Yvonne O. Reignat-Vodi
Petitioner/ Pro se
1810 Metzerott Road #47
Adelphi, Md, 20783
Tel: 240-475-1876/240-393-9125
Email: pastor@shepherdsofzion.org

34

